SIDLEY AUSTIN LLP

1501 K STREET, N.W.
SIDLEY WASHINGTON, D.C. 20005
+1 202 736 8000
+1 202 736 8711 FAX
+1 202 736 8291
JGREEN@SIDLEY.COM
AMERICA « ASIA PACIFIC » EUROPE

March 12, 2020

Honorable Scott S. Harris

Clerk

Supreme Court of the United States
Washington, D.C. 20543

Re: Kansas v. Boettger. No. 19-1051
Dear Mr. Harris:

The petition for a writ of certiorari in the above-captioned case was filed and docketed on
February 20, 2020. The response is currently due on March 25, 2020.

Under Rule 30.4 of the Rules of this Court, Respondents Timothy C. Boettger and Ryan
R. Johnson respectfully request a 30-day extension of time, to and including April 24, 2020,
within which to file their response. Counsel for Petitioner does not oppose this extension. The
undersigned has a variety of obligations before this Court that would make it difficult to
complete the response by the current deadline. These matters include a petitioner’s reply brief in
Richards v. Donovan, No. 19-55, due April 7, 2020; a petition for a writ of certiorari in Ewing v.
Nevada, No. 19A944, due April 23, 2020; and a petitioner’s brief on the merits in Jones v.
Mississippi, No. 18-1259, due April 23, 2020.

Accordingly, Respondents respectfully request a 30-day extension of time.

Sincerely,

    

J tfrey T. Green
~~Counsel for Respondents

cc: Toby Crouse
Office of Attorney General Derek Schmidt
120 S.W. 10th Avenue, 2nd Floor
Topeka, KS 66612
toby.crouse@ag.ks.gov
(765) 368-6693

Sidley Austin (DC) LLP is @ Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in aflistion with other Sidley Austin partnerships
